HHS/OIG-Audit--"Review of Allegations of Mismanagement at the Food and DrugAdministration - Newark District Office, (A-02-91-02522)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Allegations of Mismanagement at the Food and Drug Administration - Newark District Office," (A-02-91-02522)
August 6, 1992
Complete
Text of Report is available in PDF format (431 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The final audit report provides the results of our review of alleged mismanagement at the Food and Drug Administration
(FDA), Newark District Office (NDO). Congressman John D. Dingell, Chairman, House Subcommittee on Oversight and Investigations
(Subcommittee), Committee on Energy and Commerce, requested that the Office of Inspector General conduct an audit of NDO
to: (1) determine if the alleged improper management practices in that office have hindered the enforcement of the Federal
Food, Drug, and Cosmetic Act; and (2) render an opinion on whether such practices inhibit the proper inspection of pharmaceutical
manufacturers and other firms regulated by FDA. We found no evidence to support allegations that NDO management inhibited
the proper inspection of generic drug manufacturers and other firms regulated by FDA. We identified a high turnover rate
at NDO, however, we found no documentation to support the contention that improper or incompetent management caused qualified
investigators to seek other employment. Also, we found no documentation that NDO management mistreated one investigator
or hindered attempts to complete an inspection.